                                    CLOSEOUT FOR M91020007

     This case came to OIG on February 20, 1991 when ~ r .
                                         h- f
De~utv'Division Director in the Division of



                      -   -
                                                                         -   informed us of




                            (the program officer), had received a review of the proposal
b           y             f the a      C       w      (      t      h     e
complainant). The complainant's review alleged that the subject, in his proposal,
claimed credit for developing ideas that had been originated by others and plagiarized
from publications by other researchers.

        The complainant further alleged that the alleged misconduct was part of a
pattern. He gave OIG the names of several other researchers who might be able to
provide us with evidence concerning additional instances of misconduct by the subject.
OIG subsequently received accounts from these researchers of two instances of alleged
misconduct by the subject that did not involve NSF proposals or awards.

        OIG wrote to the subject. The subject denied that he had claimed credit for
ideas developed by others and explained why he believed that he had accurately
characterized his past accomplis~entsin the portion of his proposal to which the
allegation referred. OIG consulted an expert knowledgeable in this area of research.
The expert concluded that the subject's description of his accomplishments was
sufficiently general that it could reasonably be applied to either the subject's work or
the work from which he was alleged to have misappropriated ideas and credit. The
e v r t noted that the subject's description of his work came in the section of the
proposal describing past accomplishmentS with NSF support and that in this section it
was "not normal to write at a high level of technical detail" sufficient to distinguish two
closely related scientific contributions. The expert concluded that the subject's

1
    The subject was alleged to have plagiarized three sentences from -   '




                                            page lof 2                            M9 1-07
                            CLOSEOUT FOR M91020007

description could not reasonably be understood as misappropriating credit that belonged
to another researcher. OIG concluded that this allegation lacked substance.

        With regard to the plagiarism allegation, the subject admitted that he had been
wrong and apologized for his transgression. He noted that English was not his native
language, that the material he copied from others and incorporated into his proposal
without attribution did not contain original ideas, and that the amount of copied
material was small. OIG concluded that, consistent with our treatment of comparable
cases, the subject's copying was not sufficiently serious to rise to the level of
misconduct.

       OIG determined that, because the NSF-related allegations of misconduct lacked
substance, the allegations concerning a pattern in activities not related to NSF fell
outside our jurisdiction. These allegations also did not involve other federal agencies to
which we might refer misconduct cases when appropriate.

       This inquiry is closed, and no further action will be taken. on this case.




                                   page 20f 2
